TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Employers Do Not Always Follow
                             Internal Revenue Service
                           Worker Determination Rulings



                                           June 14, 2013

                              Reference Number: 2013-30-058




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 2 = Risk Circumvention of Agency Regulation or Statute


 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


EMPLOYERS DO NOT ALWAYS                             the individual was ruled an employee. Results
FOLLOW INTERNAL REVENUE SERVICE                     showed that not all employers are complying
WORKER DETERMINATION RULINGS                        with the determination rulings. However, some
                                                    of these employers may qualify for relief from
                                                    employment taxes if their business qualifies
Highlights                                          under Section 530 of the Revenue Act of 1978.
                                                    Section 530 provides for relief from employment
Final Report issued on June 14, 2013                taxes related to the proper classification of
                                                    workers if certain requirements are met. The
                                                    IRS should determine the reasons for employer
Highlights of Reference Number: 2013-30-058
                                                    noncompliance and develop a strategy to
to the Internal Revenue Service Commissioner
                                                    increase compliance with the worker
for the Small Business/Self-Employed Division.
                                                    determinations.
IMPACT ON TAXPAYERS
                                                    WHAT TIGTA RECOMMENDED
The IRS estimates that employers misclassify
                                                    TIGTA recommended that the Commissioner,
millions of workers as independent contractors
                                                    Small Business/Self-Employed Division:
instead of employees, thus avoiding the
                                                    1) incorporate documentation in the Internal
payment of employment taxes. This problem
                                                    Revenue Manual describing the features of the
adversely affects employees because the
                                                    new prescreening techniques, 2) update
employer’s share of taxes is not paid and the
                                                    performance goals for case processing times,
employee’s share is not withheld. The
                                                    3) evaluate the new prescreening techniques,
Determination of Worker Status Program
                                                    including the impact on staffing, and 4) assess
(referred to as the SS-8 Program) allows either a
                                                    SS-8 Program changes needed to increase
business or a worker to request a determination
                                                    employer compliance with determination rulings.
letter from the IRS regarding a worker’s Federal
employment tax status as an employee or             The IRS agreed with all four recommendations.
independent contractor.                             It plans to update the Internal Revenue Manual
                                                    to include the prescreening process and related
WHY TIGTA DID THE AUDIT                             procedures, including a process to monitor
This audit is part of TIGTA’s Fiscal Year 2013      efficiency. The IRS developed a measurement
Annual Audit Plan and addresses the major           for the new prescreening process and plans to
management challenge of Tax Compliance              monitor over-age cases weekly. It plans to
Initiatives. The overall objectives were to         evaluate the new prescreening techniques
evaluate whether the IRS’s Determination of         during normal headquarter reviews, which are
Worker Status Program (the SS-8 Program) is         conducted annually. Finally, the IRS plans to
effectively processing worker determination         form a team to assess potential avenues to
requests and whether the subsequent rulings         improve employer compliance with SS-8
are being followed.                                 Program determination rulings.

WHAT TIGTA FOUND
The SS-8 Program has faced a growing
inventory of cases, longer processing times, and
limited employer adherence to SS-8 Program
determination rulings. In response to these
issues, the SS-8 Program implemented new
prescreening techniques that have the potential
to reduce the time required to process cases
while improving the quality of the inventory.
TIGTA analyzed 5,325 closed Calendar
Year 2009 worker determination rulings in which
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            June 14, 2013


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Employers Do Not Always Follow Internal
                             Revenue Service Worker Determination Rulings (Audit # 201130037)

 This report presents the results of our review to evaluate whether the Determination of Worker
 Status Program was effectively processing worker determination requests and whether the
 subsequent rulings were being followed. This review was conducted as part of our Fiscal
 Year 2013 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. If you have any questions, please contact me or Augusta R. Cook,
 Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations).
                                                Employers Do Not Always Follow
                                                   Internal Revenue Service
                                                 Worker Determination Rulings




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          New Prescreening Techniques Were Implemented to
          Improve Processing Efficiency and Inventory Quality ................................. Page 6
          Plans for Evaluating How Well the Prescreening
          Techniques Are Working Need to Be Developed
          and Implemented ........................................................................................... Page 8
                    Recommendations 1 through 3:......................................... Page 10

          Follow-Up Is Needed to Ensure Compliance With
          Worker Determination Rulings ..................................................................... Page 10
                    Recommendation 4:........................................................ Page 13


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 14
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measure ................................................................ Page 19
          Appendix V – SS-8 Program Letter Sent to Taxpayers
          Informing Them That a Determination Cannot Be Made ............................. Page 21
          Appendix VI – Glossary of Terms ................................................................ Page 23
          Appendix VI – Management’s Response to the Draft Report ...................... Page 25
                                          Employers Do Not Always Follow
                                             Internal Revenue Service
                                           Worker Determination Rulings




                                             Background

The determination of whether a worker is an employee or an independent contractor has
significant tax implications for the worker, the employer, and the Internal Revenue Service (IRS)
because employers and workers have different tax obligations depending on employee/contractor
status. Determining the correct worker classification
affects who is responsible for paying the Social Security
                                                                  The misclassification of
tax, Medicare tax, and Federal unemployment taxes, as            employees as independent
well as whether or not Federal income tax withholding is        contractors is a nationwide
needed.                                                       problem that continues to grow
                                                                         and contribute to the Tax Gap.
The misclassification of employees as independent
contractors is a nationwide problem affecting millions of
workers that continues to grow and contribute to the Tax Gap.1 Congress, the IRS, and the
Treasury Inspector General for Tax Administration have raised concerns regarding the
misclassification of employees as independent contractors.
The IRS’s last comprehensive worker misclassification estimate was for Tax Year 1984. At that
time, it found that 15 percent of employers misclassified 3.4 million workers as independent
contractors. This resulted in an estimated total tax loss of $1.6 billion in Social Security taxes,
Medicare taxes, Federal unemployment taxes, and Federal income taxes (for Tax Year 1984).2
Although the IRS has not updated the information from its Tax Year 1984 report, it has included
a worker classification study in its ongoing National Research Program. The study will provide
information regarding worker classification. It is designed to identify questionable worker
classification issues based upon a review of the taxpayer’s records, as well as the
Forms 1099-MISC, Miscellaneous Income, filed by taxpayers who have filed the Form 941,
Employer’s QUARTERLY Federal Tax Return. However, the results of this study will not be
available before Calendar Year 2015.

By misclassifying employees, employers avoid paying a significant amount of
employment taxes
When employers treat their workers as independent contractors, they do not withhold any taxes
from their workers’ salaries and are required to annually issue them a Form 1099-MISC. In this



1
  See Appendix VI for a glossary of terms.
2
  The study did not include an estimate of the percentage of all independent contractors who were misclassified by
their employers (that is, of all independent contractors, the percentage that should have been classified as
employees).
                                                                                                            Page 1
                                         Employers Do Not Always Follow
                                            Internal Revenue Service
                                          Worker Determination Rulings



instance, the worker is responsible for paying the entire amount of his or her Social Security and
Medicare taxes, as well as any Federal income taxes.
When employers treat their workers as employees, they are required to withhold Federal income
taxes from their workers’ salaries and are required to annually issue them a Form W-2, Wage
and Tax Statement. Employers are also required to withhold Social Security and Medicare taxes
from their employees’ wages, as well as pay the employer’s share of these taxes. Employers are
also responsible for paying Federal unemployment taxes
for their employees.
                                                                          Misclassifications of employees
The IRS estimates that employers misclassify millions       allow employers to avoid paying
of workers as independent contractors instead of           a significant amount of money in
                                                                   employment taxes.
employees. The misclassifications allow employers to
avoid paying a significant amount of money in
employment taxes, which adversely affects employees and tax administration.
In Calendar Year 2012, employers had to withhold 1.45 percent from their employees’ salaries
for Medicare taxes and match it by paying an additional 1.45 percent. For Social Security taxes,
employers had to withhold 4.2 percent of their employees’ wages and pay their share, which is
an additional 6.2 percent.3 The employer must also pay the Federal unemployment tax, at a rate
of 6 percent for the first $7,000 of their employees’ wages, for a total of $420.
As Figure 1 illustrates, on average, an employer can save approximately $3,710 per worker per
year in employment taxes on an annual average of $43,007 in income paid per employee4 when
the employer misclassifies a worker as an independent contractor.




3
  The Tax Relief, Unemployment Insurance Reauthorization, and Job Creation Act of 2010, Pub. L. No. 111-312,
124 Stat. 3296 (2010), provided a temporary, one-year reduction in the payroll tax. The normal employee rate of
6.2 percent was reduced to 4.2 percent. The reduction was extended temporarily by the Temporary Payroll Tax Cut
Continuation Act of 2011, Pub. L. 112–78, 125 Stat. 1280 (2011) and then again through the end of 2012 by The
Middle Class Tax Relief and Job Creation Act of 2012, Pub. L. 112–96, 126 Stat. 156 (2012).
4
  This is the estimated national average wage index for Calendar Year 2011 that the Social Security Administration
uses to compute retirement benefits.
                                                                                                           Page 2
                                        Employers Do Not Always Follow
                                           Internal Revenue Service
                                         Worker Determination Rulings



              Figure 1: Calendar Year 2012 Employment Taxes Employers Pay
                 if the Worker Is Misclassified as an Independent Contractor

                     Employer’s Portion         Employer’s Portion of         Dollar Advantage per Worker
                     of Tax if Worker Is           Tax if Worker Is           for Employers to Misclassify
                     Properly Classified         Misclassified as an           Employees as Independent
        Tax           as an Employee           Independent Contractor                 Contractors

Social Security               $2,666                        $0                             $2,666

Medicare                        $624                        $0                               $624

Federal
Unemployment                    $420                        $0                               $420

Total                         $3,710                        $0                             $3,710

Source: Treasury Inspector General for Tax Administration audit analysis based on an average annual income of
$43,007.

The Determination of Worker Status Program (hereafter referred to as the SS-8 Program) was
established in Calendar Year 1994 to allow either a business or a worker to request a
determination letter from the IRS regarding a worker’s Federal employment tax status as an
employee or independent contractor. If an employer classifies a worker as an independent
contractor and the worker believes the classification is incorrect, the worker can file a
Form SS-8, Determination of Worker Status for Purposes of Federal Employment Taxes and
Income Tax Withholding.
In making a determination, the IRS considers common law rules (factors) on whether the worker
is an employee or an independent contractor when a Form SS-8 is processed. These factors
include:
    1. Behavioral – Does the firm control or have the right to control what the worker does and
       how the worker does his or her job? An employee is generally subject to the business’
       instructions about when, where, and how to work.
    2. Financial – Are the business aspects of the worker’s job controlled by the firm? These
       include, for example, how the worker is paid, whether expenses are reimbursed, and who
       provides tools/supplies.
    3. Type of Relationship – Are there written contracts or employee benefits (pension plan,
       insurance, vacation pay, etc.)? Will the relationship continue and is the work performed
       a key aspect of the business?
If the IRS finds that the worker was misclassified as an independent contractor by his or her
employer, it can issue a binding agreement that would allow the worker to stop paying all of the

                                                                                                       Page 3
                                        Employers Do Not Always Follow
                                           Internal Revenue Service
                                         Worker Determination Rulings



employment taxes associated with being an independent contractor. In this instance, the worker
would be responsible for paying only the employee’s portion of the employment taxes and the
employer would be responsible for the rest.
The IRS sends employers a letter that explains the criteria used to make the determination and
the tax ramifications. The letter clarifies that compensation to an individual classified as an
employee is subject to Federal income tax withholding, Federal insurance contributions tax, and
Federal unemployment tax. The letter also states:
        The SS-8 Program does not calculate your balance due and send you a bill. You are responsible
        for satisfying the employment tax reporting, filing, and payment obligations that result from this
        determination, such as filing employment tax returns or adjusting previously filed employment tax
        returns.

However, there is relief for employers from paying employment taxes if their business qualifies
for relief under Section 530 of the Revenue Act of 1978.5 Section 530 is a safe harbor provision
that prevents the IRS from retroactively reclassifying “independent contractors” as employees
and subjecting the employer to Federal employment taxes, penalties, and interest for such
misclassification. In order for an employer to qualify for Section 530 relief from employment
taxes, certain requirements have to be met:
   Reporting Consistency – A business must have filed all required Federal tax returns
    (including information returns) consistent with its treatment of each worker as not being
    employees.
   Substantive Consistency – A business (and any predecessor business) must have treated the
    workers, and any similar workers, as independent contractors. If the business treated similar
    workers as employees, this relief provision is not available.
   Reasonable Basis – A business had a reasonable basis for not treating the workers as
    employees, such as a court case or a ruling issued to the business from the IRS or an audit by
    the IRS in which the workers were not reclassified.
If all of these requirements are met, Section 530 relief terminates the employer’s, not the
worker’s, employment tax liability and any interest or penalties attributable to the liability for
employment taxes. In addition, the examination of the worker classification issue will be
discontinued without a determination. Even if a worker filed a Form SS-8 and obtained a ruling
that he or she was an employee, it is possible that the employer would still not have to pay the
employer’s share of the employee’s employment taxes if the employer retroactively qualifies for
Section 530 relief.


5
 Section 530 of Public Law 96-600, 92 Stat. 2885 (1978) as amended by Public Law 96-167, 93 Stat. 1278 (1979);
Public Law 96-541, 95 Stat. 3204 (1980); Public Law 97-248, 96 Stat. 552 (1982); and Public Law 104-188, 110
Stat. 1766 (1996).
                                                                                                       Page 4
                                     Employers Do Not Always Follow
                                        Internal Revenue Service
                                      Worker Determination Rulings



Section 530 relief terminates the liability of the employer only for the employment taxes, but has
no effect on the employee’s status. It does not convert workers from the status of employee to
the status of self-employed (independent contractor). The worker is still considered an employee
for income tax and qualified benefit plan eligibility purposes. The worker remains liable for the
employee share of Social Security and Medicare taxes with respect to all wages received. The
hypothetical example below illustrates how Section 530 relief may apply.
       Example: Worker 1 received a Tax Year 2012 Form 1099-MISC for $24,000 from ABC
       Company. Worker 1 believes he or she should be classified as an employee of the ABC
       Company and files a Form SS-8 to receive a determination of his or her worker status. While
       Worker 1 is waiting on the determination, he or she files a Form 8919, Uncollected Social
       Security and Medicare Tax on Wages, that is used to figure and report his or her share of the
       uncollected Social Security and Medicare taxes due on his or her compensation. By completing
       and filing Form 8919, Worker 1’s Social Security and Medicare taxes will be credited to his or her
       Social Security record.
       The IRS determines that the ABC Company meets the requirements to qualify for Section 530
       relief, so ABC Company is not liable for any employment taxes for Worker 1. However, Worker 1
       is still responsible for his or her portion of the Social Security and Medicare taxes of $1,356
       (Social Security tax of $1,008 and Medicare tax of $348), which should be reported on his or her
       Form 8919. Worker 1’s benefits will not be affected because benefits are based on salary and
       not employment taxes paid.

This review was performed in the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, and the Form SS-8 processing locations in Newport, Vermont, and
the Brookhaven Campus in Holtsville, New York, during the period August 2011 through
January 2013. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                                  Page 5
                                        Employers Do Not Always Follow
                                           Internal Revenue Service
                                         Worker Determination Rulings




                                     Results of Review

New Prescreening Techniques Were Implemented to Improve
Processing Efficiency and Inventory Quality
IRS SS-8 Program management implemented a new prescreening process in January 2012 to
help process their inventory more efficiently. Unlike the prior process, when cases could stay in
inventory for more than a year waiting on information, Forms SS-8 are now reviewed for
completeness when the IRS receives them. If additional information is needed or the request
does not meet the criteria for a worker determination, the form and a cover letter are sent to the
employer/worker stating that the request cannot be processed because of one of the following
reasons: 1) the form is incomplete, 2) the form is missing documentation, or 3) the request does
not meet the criteria for a worker determination.6 The employer/worker has 15 calendar days to
respond. If no additional information is received, the case is closed out of inventory.
The SS-8 Program received 6,262 worker
determination requests in Fiscal Year 2012.                 Approximately half of the requests
                                                            for worker determinations received
Of these, approximately 2,900 were returned to
                                                             in Fiscal Year 2012 were returned
the employer/worker. For about half of those                      to the employer/worker.
returned, the IRS anticipates it will receive no
response. It has been the IRS’s experience that many
taxpayers file determination requests just to ask general questions about filing their income taxes
(which can be answered by calling the IRS’s Customer Service toll-free telephone number).
These types of cases are now being excluded upfront from the SS-8 Program’s inventory.
In addition, the new prescreening process is used to categorize the cases by occupation so that a
tax examiner can become familiar with the occupational factors that may affect the determination
of whether a worker should be treated as an employee or independent contractor. Besides
helping IRS employees process their inventory more efficiently, the new prescreening process
has the potential to address the quality of the inventory because incomplete requests are now
closed quickly from inventory, which reduces the overall processing times.
As Figure 2 shows, Form SS-8 receipts grew from 5,935 in Fiscal Year 2007 and remained
significantly higher until Fiscal Year 2012, when they were 6,262. An IRS official stated that
receipts returned to the Fiscal Year 2007 level after the IRS updated IRS.gov, its public website,
and clarified the instructions on who should file the Form SS-8. Additionally, SS-8 Program


6
 See Appendix V for an example of an SS-8 Program letter sent to taxpayers informing them that a determination
cannot be made.
                                                                                                        Page 6
                                            Employers Do Not Always Follow
                                               Internal Revenue Service
                                             Worker Determination Rulings



staff met with the IRS offices that deal directly with the taxpayers on questions concerning
employee classification and worker determinations. Program staff provided clarification on who
should complete the Form SS-8 and how the Forms should be completed.
                                     Figure 2: Forms SS-8 Received
                                  From Fiscal Years 2007 Through 2012




                             Source: SS-8 Program Year-End Reports of Accomplishment
                             by fiscal year.

During Fiscal Years 2009 through 2011 when receipts were significantly higher, inventories
increased and aged. By the end of Fiscal Year 2012, the SS-8 Program had 12,547 SS-8 cases in
its inventory, of which 9,612 (77 percent) were classified as over-age.7 As Figure 3 shows, the
average number of days to process a case went from 239 calendar days in Fiscal Year 2009 to
365 calendar days in Fiscal Year 2012.
                        Figure 3: Form SS-8 Over-Age Inventory and
                 Processing Time Trends for Fiscal Years 2009 Through 2012




                      Source: SS-8 Program Year-End Reports of Accomplishment by fiscal year.



7
    A case is considered over-aged if it has been in inventory more than 180 days.
                                                                                                Page 7
                                       Employers Do Not Always Follow
                                          Internal Revenue Service
                                        Worker Determination Rulings



A Small Business/Self-Employed Division Research Team’s report on Form SS-8 filing trends
and SS-8 Program sizing8 states that the increase in inventory and longer processing times was
attributed to the introduction of Form 8919 in Fiscal Year 2008.
      ...the SS-8 program saw an 80% increase in receipts…. Until the advent of the new form [8919],
      the program never had over[-]age inventory; no cases took more than 180 days to process.
      Starting in 2008 inventory as a whole and the percent over[-]age gradually increased….

The IRS created Form 8919 to assist workers who have to file their tax returns before obtaining a
determination ruling from the SS-8 Program or before their employer complies with a ruling.
Form 8919 advises taxpayers that they must file Form SS-8 if they want the IRS to determine
whether they are independent contractors or employees. It is used to calculate and report the
worker’s share of the uncollected Social Security and Medicare taxes because he or she was
treated as an independent contractor by his or her employer. Because the IRS treats the worker
as an employee while the determination ruling is being processed, filing Form 8919 benefits the
worker by eliminating the self-employment taxes he or she currently owes as a result of being
classified as an independent contractor.
In a prior review,9 the Treasury Inspector General for Tax Administration identified
74,068 taxpayers who may have avoided paying $26.2 million in Social Security and Medicare
taxes because he or she improperly used the Form 8919. *************2*****************
*************************************2***************************************
************************************2***************************************
****2****, taxpayers could avoid paying approximately $131.1 million in taxes over five years.

Plans for Evaluating How Well the Prescreening Techniques Are
Working Need to Be Developed and Implemented
Although the new prescreening process has been in place for more than one year, the IRS has not
updated the Internal Revenue Manual with the new procedures, including how the procedures
will be monitored. Both IRS guidance and the Standards for Internal Control in the Federal
Government10 state that such documentation assists staff with following required procedures and
that ongoing monitoring occurs in the normal course of operations for management comparisons
to ensure that controls are followed.




8
  IRS, SEA0078, SS-8 Filing Trends and Program Right Sizing (Mar. 2011).
9
  Treasury Inspector General for Tax Administration, Ref. No. 2010-30-025, Employment Tax Compliance Could Be
Improved With Better Coordination and Information Sharing (Mar. 2010).
10
   Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                     Page 8
                                      Employers Do Not Always Follow
                                         Internal Revenue Service
                                       Worker Determination Rulings



A key component in an overall framework of best practices emphasizes the need to develop and
implement plans for evaluating new processes once implemented.11 The purpose of an evaluation
is to answer questions about how well (or whether) the process is working and whether further
improvements are needed. It typically involves collecting, analyzing, and comparing
performance data to a pre-established goal or desired outcome, such as a specified reduction in
processing time.
The IRS has not developed plans to evaluate the new process and it has not updated goals for
processing cases under the new prescreening process, including the impact on the performance of
the SS-8 Program. Such information would give SS-8 Program managers a better understanding
of the requisite staffing level for the program and whether additional personnel is warranted. It
would also provide needed evidence to address recent stakeholder concerns that staffing
shortfalls may be hampering program performance.
For example, concern about the SS-8 Program’s ability to keep pace with the sustained
Form SS-8 filings during the Calendar Years 2009 through 2011 filing seasons led the Senate
Subcommittee on Financial Services and General Government to report12 that it is crucial, given
the growing workload, that the IRS maintain sufficient staffing at Form SS-8 processing
locations. The subcommittee also indicated in its report that the IRS’s SS-8 Program is critical
for ensuring workers are classified correctly and for identifying leads for employment tax
examinations, criminal investigations, and combating the underreporting of employment taxes
that contribute significantly to the Tax Gap.
Further, the Small Business/Self-Employed Division Research Team report on the Form SS-8
filing trends and SS-8 Program sizing concluded that the new pattern of Forms SS-8 submitted
by taxpayers provides a sound basis for predicting future receipts. Although the Research
Team’s report was issued before the new prescreening process was implemented, the team
concluded that once current accumulated inventory has been cleared and the program returns to
normal inventory levels, the SS-8 Program should have in the range of 43 to 54 year-round
employees instead of the 29 to 31 employees that were on staff during their study.13 The new
prescreening process could result in lower staffing levels than the Research Team report
suggests, but that will not be known until it is evaluated.




11
   Government Accountability Office, GAO/AIMD-10.1.15, Business Process Reengineering Assessment Guide
(May 1997).
12
   S. REP. NO. 112-079, at 27 (2012).
13
   These are direct Full-Time Equivalent employees.
                                                                                                   Page 9
                                  Employers Do Not Always Follow
                                     Internal Revenue Service
                                   Worker Determination Rulings



Recommendations
The Commissioner, Small Business/Self-Employed Division, should:
Recommendation 1: Update the Internal Revenue Manual with the new prescreening process
and the related procedures, including how the IRS will monitor the process to ensure that it is
operating efficiently.
       Management’s Response: The IRS agreed with this recommendation. The IRM
       will be updated with the new prescreening process and the related procedures, including a
       process to monitor efficiency.
Recommendation 2: Measure the contribution the new prescreening process is making
towards addressing the backlog of over-age cases.
       Management’s Response: The IRS agreed with this recommendation. It has
       developed a measurement for the new prescreening process and will continue to review
       and monitor the backlog of over-age cases on a weekly basis.
Recommendation 3: Develop and implement plans for evaluating the new prescreening
process, including its impact on staffing.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       responded that procedures are evaluated during normal headquarter reviews, which are
       conducted annually. The next review is scheduled for May 2013. Additionally, data are
       analyzed on a continuous basis by headquarters in an effort to identify areas of concern
       and potential for increased efficiencies.

Follow-Up Is Needed to Ensure Compliance With Worker
Determination Rulings
Our analysis of all 5,325 closed Calendar Year 2009 SS-8 worker determinations that resulted in
the worker being classified as an employee showed that not all employers are complying with the
determination rulings. The determinations we analyzed were made in Calendar Year 2009, but
we also reviewed information returns issued for Tax Years 2008 through 2010. When the IRS
determines that a worker is an employee, the employer is instructed to file corrected employment
tax returns and information returns showing that the worker and any other worker performing
services under the same circumstances are treated as employees. In addition, if the worker has
already filed a Form 1040, U.S. Individual Income Tax Return, he or she must file a
Form 1040X, Amended U.S. Individual Income Tax Return, for the affected tax year(s) to include
the additional income as wages and re-compute his or her Federal income.




                                                                                        Page 10
                                         Employers Do Not Always Follow
                                            Internal Revenue Service
                                          Worker Determination Rulings



Tests of the 5,325 worker determinations included 5,067 employers.14 Results showed that:
        856 (17 percent) of 5,067 employers appeared to comply with the ruling and issued one
         or more Forms W-2 to their workers during Tax Years 2008 through 2010.
        940 (19 percent) of 5,067 employers appeared not to have complied with the
         determinations and issued a Form 1099-MISC instead of a Form W-2 to their workers for
         Tax Year 2008, 2009, and/or 2010. The IRS stated that 17.25 percent of employers
         might not be responsible for paying the employment tax associated with these rulings due
         to relief granted under Section 530 and, therefore, would not need to file Forms W-2. To
         account for employers that could be granted relief under Section 530, we reduced the
         940 employers believed to be noncompliant by the 17.25 percent (162 employers). We
         estimated that 778 employers did not properly report an estimated $11.2 million in
         worker income. As a result, approximately $1.2 million in employment taxes may not
         have been properly reported or paid by these employers. If not pursued, an estimated
         $6 million in employment taxes may not be properly reported or paid by these employers
         over the next five years.
        3,294 (65 percent) of 5,067 employers15 did not issue a Form 1099-MISC or a Form W-2
         to their workers. Either the taxpayers no longer worked for the employers related to the
         determinations or the compensation was not reported to the IRS.
The SS-8 Program has little ability to enforce compliance after a determination ruling is made.
However, there are opportunities to improve enforcement using the IRS’s audit referral and audit
classification process. The IRS relies on audits conducted by the Small Business/Self-Employed
Division, the Large Business and International Division, and the Tax Exempt and Government
Entities Division to enforce worker determination rulings. The intial step in the process of
enforcing the rulings involves the SS-8 Program referring the suspected noncompliant employer
to the division having the proper jurisdiction. After identifying which of the three IRS business
operating divisions has jurisdiction, the SS-8 Program applies criteria provided by the respective
operating division to the underlying facts of the particular ruling in determining if a referral is
warranted.
Each of the business units has its own specific criteria. If the referral criteria are met, the ruling
and underlying facts of the case are forwarded to the operating division for audit consideration; if
not, the case is closed without any further actions. In instances where a referral is made,
examiners use their experience and judgment in conjunction with the operating division’s



14
   Multiple workers could have filed a Form SS-8 for one employer. Percentages do not add to 100 percent due to
rounding.
15
   The three bulleted amounts total 5,090 employers (a difference of 23 employers). An employer could have had
more than one determination if multiple workers filed a Form SS-8.
                                                                                                        Page 11
                                          Employers Do Not Always Follow
                                             Internal Revenue Service
                                           Worker Determination Rulings



workload priorities and available resources to screen (e.g., classify) the case and decide whether
an audit is warranted.
In Fiscal Year 2011, the SS-8 Program closed 8,405 worker determinations and referred
797 (9.5 percent) of them to the operating divisions for audit consideration. The remaining
7,608 (90.5 percent) of the determination ruling cases did not meet the minimum operating
division referral criteria according to SS-8 Program management and were closed with no further
actions. Figure 4 shows the number of Form SS-8 cases referred to each operating division for
audit consideration in Fiscal Year 2011 along with the resulting case resolutions.16 Small
Business/Self-Employed Division examiners accepted and worked 538 (6.4 percent) of the
8,405 closed worker determination cases.
                  Figure 4: Number of Form SS-8 Cases Referred for Audit
                   in Fiscal Year 2011 and the Resulting Case Resolutions

                                                    Number of               Number of
                                                   SS-8 Cases              SS-8 Cases
                                                   Referred for            Accepted for            Total Taxes
         Business Operating Division               Examination             Examination             Assessed17

     Small Business/Self-Employed                        742                     538               $13,463,380

     Large Business and International                       7                       0                            0

     Tax Exempt and Government Entities                   48                        0                            0

                                        Total            797                     538               $13,463,380

Source: Management of the SS-8 Program and the Small Business/Self-Employed, the Large Business and
International, and the Tax Exempt and Government Entities Divisions.

Since Fiscal Year 2008, the Small Business/Self-Employed Division has refined its referral
criteria at least twice and also standardized how its examiners classify SS-8 Program worker
determination cases. After the refinements were implemented, the percentage of referrals that
resulted in an audit doubled, ranging from approximately 38 percent in Fiscal Year 2008 up to
85 percent in Fiscal Year 2011. The Small Business/Self-Employed Division also provides
routine feedback to SS-8 Program managers about each referral, including the reasons for not
acting on a referral. Such performance feedback is an important control for improving the



16
   Two of the operating divisions did not take any action on the determination cases referred to them by the
SS-8 Program in Fiscal Year 2011.
17
   This is the total amount of taxes assessed in Fiscal Year 2011 from the accepted SS-8 Program referrals and
includes cases from other fiscal years.
                                                                                                           Page 12
                                    Employers Do Not Always Follow
                                       Internal Revenue Service
                                     Worker Determination Rulings



quality of referrals by pinpointing problem areas for possible corrective actions, thereby
increasing the number of resulting audits.
The Large Business and International Division and the Tax Exempt and Government Entities
Division generally have not assessed or adjusted its referral criteria. In addition, neither
operating division has provided feedback to the SS-8 Program on the quality of the referrals
received. However, Large Business and International Division officials stated that any feedback
not provided on the SS-8 Program examination referrals was an unintentional oversight and that
they have an established process to provide such information to the SS-8 Program managers.
The Tax Exempt and Government Entities Division recently established new referral criteria
procedures for the SS-8 Program and plans to introduce more standardization to its audit
classification process for worker determination cases.
Nevertheless, the IRS should determine the reasons for employer noncompliance and develop a
strategy to increase compliance with the worker determinations. Following a structured
framework, such as the one the Government Accountability Office developed for process
improvement projects, IRS personnel should consider and assess alternative approaches to
increasing compliance and ensure that taxpayers understand and meet their tax responsibilities.

Recommendation
Recommendation 4: We recommend that the Commissioner, Small Business/Self-Employed
Division, coordinate with the Commissioners of the Large Business and International Division
and the Tax Exempt and Government Entities Division to assess SS-8 Program changes needed
to increase employer compliance with determination rulings.
Management’s Response: The IRS agreed with this recommendation. It agrees that
coordination and communication is important for effective administration of the SS-8 Program
determination process. The Small Business/Self-Employed Division will form a team with the
Tax Exempt and Government Entities Division to address this recommendation by July 31, 2013.
A formal proposal to assess potential avenues to improve employer compliance with SS-8
Program determination rulings will be completed by March 31, 2014.




                                                                                             Page 13
                                             Employers Do Not Always Follow
                                                Internal Revenue Service
                                              Worker Determination Rulings



                                                                                                      Appendix I

           Detailed Objectives, Scope, and Methodology

Our overall objectives were to evaluate whether the SS-8 Program is effectively processing
worker determination requests and whether the subsequent rulings are being followed. To
accomplish our objective, we:
I.         Evaluated whether the SS-8 Program was effectively processing worker determination
           requests and determined the effect of present staffing on the program.
           A. Reviewed SS-8 Program inventory reports and over-age reports to identify trends
              from Fiscal Years 2009 through 2012.
           B. Reviewed Internal Revenue Manual1 guidelines and desk procedures to determine
              how worker determination cases were worked.
           C. Interviewed SS-8 Program managers concerning the worker determination request
              inventory to determine how they closed cases and what is being done to address
              staffing.
           D. Reviewed staffing reports to determine whether staffing has increased or decreased
              over Fiscal Years 2009 through 2011.
II.        Determined if the worker determination rulings are being followed by the employers
           when they receive notification that their worker was an employee.
           A. Reviewed the letters sent to employers and the workers after a determination ruling to
              ensure that it is clear and understandable so taxpayers know their tax obligations.
           B. Reviewed a judgmental sample2 of 25 case files to see if any further analysis was
              required to ensure that workers were sent a letter informing them of the SS-8 Program
              determination ruling and their tax obligations.
           C. Determined whether employers and their workers complied with the SS-8 Program
              determination rulings.




1
    See Appendix VI for a glossary of terms.
2
    A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                               Page 14
                                         Employers Do Not Always Follow
                                            Internal Revenue Service
                                          Worker Determination Rulings



             1. Validated the SS-8 Database by taking a judgmental sample3 of 25 cases matching
                the case identifier on the SS-8 Database to the case files to ensure that the cases
                exist and that the data are accurate.
             2. Used the SS-8 Database to extract the Social Security Number for the workers
                and the Employer Identification Number for the employers for cases closed in
                Calendar Year 2009.
             3. Prepared a Strategic Data Services extract to obtain all Forms 1099-MISC,
                Miscellaneous Income, from the Information Returns Master File that matched the
                information we provided them in Step II.C.2. Strategic Data Services then
                provided a database of Forms 1099-MISC with the Social Security Numbers for
                the workers and the Employer Identification Numbers for the employers along
                with the income amounts on the forms.
             4. Validated the Strategic Data Services extract by taking a judgmental sample of
                25 Forms 1099-MISC income amounts and matching the amounts to the
                Integrated Data Retrieval System.
             5. Extracted the same Employer Identification Numbers and Social Security
                Numbers for the Forms W-2, Wage and Tax Statement, for Tax Years 2008
                through 2010 using the Form W-2 file at the Data Center Warehouse.
             6. Validated the Form W-2 information obtained from the Data Center Warehouse
                by selecting a judgmental sample of 25 Forms W-2 income amounts and matching
                the amounts to the Integrated Data Retrieval System.
             7. Matched the Forms 1099-MISC and Forms W-2 using the Employers’
                Identification Number and the workers’ Social Security Number information to
                determine if the employers complied with the SS-8 Program rulings.
             8. Totaled the Forms 1099-MISC income fields to determine the unreported income
                amounts. We also used the Medicare and Social Security tax percentages to
                determine the unreported employment tax amounts.
        D. Reviewed the examination referrals from the SS-8 Program to determine if the
           examination referrals affected compliance with SS-8 Program determination rulings.
             1. Reviewed examination referral reports to obtain how many SS-8 Program worker
                determination cases were referred to the examination functions.

3
  To assess the reliability of computer-processed data, programmers in the Treasury Inspector General for Tax
Administration’s Office of Strategic Data Services validated the data that were extracted, and we verified the
appropriate documentation. Judgmental samples were selected and reviewed to ensure that the amounts presented
were supported by external sources. As appropriate, data in the selected data records were compared to the physical
tax returns to verify that the amounts were supported.
                                                                                                          Page 15
                                   Employers Do Not Always Follow
                                      Internal Revenue Service
                                    Worker Determination Rulings



           2. Reviewed examination referral reports to obtain how many SS-8 Program worker
              determination cases were examined, the amount of taxes assessed, the no change
              rate, and the surveyed rate.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SS-8 Program’s policies, procedures,
and practices for processing determination requests and referring cases that involve
noncompliance. We evaluated these controls by interviewing management, reviewing inventory
reports, and analyzing data to determine compliance with determination rulings.




                                                                                         Page 16
                                  Employers Do Not Always Follow
                                     Internal Revenue Service
                                   Worker Determination Rulings



                                                                               Appendix II

                 Major Contributors to This Report

Augusta R. Cook, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Director
Jeff Anderson, Audit Manager
Tina Parmer, Audit Manager
John Chiappino, Lead Auditor
Todd Anderson, Senior Auditor
Kyle Bambrough, Senior Auditor
Earl Burney, Senior Auditor
Marge Filippelli, Senior Auditor
Kim McMenamin, Audit Evaluator
Michele Cove, Assistant Director, Data Extracts Group, Strategic Data Services
James Allen, Information Technology Specialist, Data Services Group, Strategic Data Services




                                                                                      Page 17
                                Employers Do Not Always Follow
                                   Internal Revenue Service
                                 Worker Determination Rulings



                                                                              Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
The Office of Deputy Commissioner for Services and Enforcement SE
Commissioner, Large Business and International Division SE:LB
Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Specialty Programs, Small Business/Self-Employed Division SE:S:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Commissioner, Large and Mid-Size Business Division SE:LB
    Commissioner, Small Business/Self-Employed Division SE:S
    Commissioner, Tax Exempt and Government Entities Division SE:T




                                                                                    Page 18
                                        Employers Do Not Always Follow
                                           Internal Revenue Service
                                         Worker Determination Rulings



                                                                                             Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Increased Revenue – Potential; approximately $6 million in employment taxes may not be
properly reported or paid by 778 employers over five years (see page 10).

Methodology Used to Measure the Reported Benefit:
We obtained the SS-8 Database and extracted the Social Security Number1 for the workers and
the Employer Identification Number for the employers for all 5,325 closed Calendar Year 2009
SS-8 Program worker determinations that resulted in the worker being classified as an employee.
These 5,325 worker determinations included 5,067 employers.2
We found that 940 employers did not comply with the IRS’s rulings and did not issue a
Form W-2, Wage and Tax Statement, to their workers for Tax Years 2008 through 2010 on an
estimated $13.5 million in worker income. However, based on information provided by the IRS,
17.25 percent of employers might not be responsible for paying the employment tax associated
with these rulings due to relief granted under Section 530 of the Revenue Act of 1978.3  To
account for those employers that could be granted relief under Section 530, we reduced the
940 employers we believed to be noncompliant by the 17.25 percent (162 employers).
We estimate that 778 employers did not properly report an estimated $11.2 million in worker
income. As a result, we estimate that approximately $1.2 million in employment taxes may not
have been properly reported or paid by these employers. Figure 1 shows the details of these
calculations.




1
  See Appendix VI for a glossary of terms.
2
  An employer could have had more than one determination if multiple workers filed a Form SS-8, Determination of
Worker Status for Purposes of Federal Employment Taxes and Income Tax Withholding.
3
  Section 530 of Public Law 96-600, 92 Stat. 2885 (1978) as amended by Public Law 96-167, 93 Stat. 1278 (1979);
Public Law 96-541, 95 Stat. 3204 (1980); Public Law 97-248, 96 Stat. 552 (1982); and Public Law 104-188,
110 Stat. 1766 (1996).
                                                                                                       Page 19
                                          Employers Do Not Always Follow
                                             Internal Revenue Service
                                           Worker Determination Rulings



       Figure 1: Calculation of Employment Taxes Not Properly Reported or Paid

                                                                             Amount Not Properly
                  Category (2009 Tax Rates)                              Reported or Paid by Employers

    Worker Income Not Properly Reported by the
                                                                                     $11,180,112
    778 Employers

           Social Security Tax
                                                                                        $693,167
           (Employer’s Portion – 6.2 percent)

           Medicare (Employer’s Portion – 1.45 percent)                                 $162,112

           Federal Unemployment Tax
                                                                                        $337,652
           (778 Noncompliant Employers X $434)4

    Total Employment Tax (Including Federal
    Unemployment Tax) Not Properly Reported or Paid by                                $1,192,931
    778 Employers

If IRS management does not take the adequate steps to increase employer compliance with the
determination rulings, we believe an estimated $6 million ($1,192,931 x 5 years) in employment
taxes may not be properly reported or paid by these employers over the next five years.




4
 The Federal Unemployment Tax calculated in the report text on Page 2 and used in Figure 1 on Page 3 is
calculated with the 6 percent rate effective in Calendar Year 2012. In this figure, the Federal Unemployment Tax is
calculated with the 6.2 percent rate that was effective in Calendar Year 2009.
                                                                                                          Page 20
                Employers Do Not Always Follow
                   Internal Revenue Service
                 Worker Determination Rulings



                                                 Appendix V

SS-8 Program Letter Sent to Taxpayers Informing
  Them That a Determination Cannot Be Made




                                                      Page 21
                                 Employers Do Not Always Follow
                                    Internal Revenue Service
                                  Worker Determination Rulings




Source: IRS’s SS-8 Program management.


                                                                  Page 22
                               Employers Do Not Always Follow
                                  Internal Revenue Service
                                Worker Determination Rulings



                                                                            Appendix VI

                              Glossary of Terms

              Term                                      Definition
Calendar Year                  A 12-consecutive-month period ending on December 31.
Data Center Warehouse          A Treasury Inspector General for Tax Administration Office
                               of Information Technology function that obtains and stores
                               numerous IRS data files and makes them available to
                               auditors and investigators.
Direct Full-Time Equivalent    A measure of labor hours in which one Full-Time Equivalent
                               is equal to eight hours multiplied by the number of
                               compensable days in a particular fiscal year.
Employer Identification        A unique nine-digit number used to identify a taxpayer’s
Number                         business account.
Federal Unemployment Tax       This tax provides for payments of unemployment
                               compensation to workers who have lost their jobs. Most
                               employers pay both Federal and State unemployment tax.
Fiscal Year                    A 12-consecutive-month period ending on the last day of any
                               month. The Federal Government’s fiscal year begins on
                               October 1 and ends on September 30.
Information Returns Master     Contains information return data for the current year and
File                           prior six tax years.
Integrated Data Retrieval      The IRS computer system capable of retrieving or updating
System                         stored information. It works in conjunction with a taxpayer’s
                               account records.
Internal Revenue Manual        Contains the policies, procedures, instructions, guidelines,
                               and delegations of authority which direct the operation and
                               administration of the IRS. Topics include tax administration,
                               personnel and office management, and others.
Medicare Tax                   Medicare tax is the amount withheld by your employer from
                               your paycheck that helps cover the cost of running the
                               Medicare program.




                                                                                     Page 23
                            Employers Do Not Always Follow
                               Internal Revenue Service
                             Worker Determination Rulings



            Term                                       Definition
National Research Program   This program supports measurement of taxpayer
                            compliance with Federal tax laws that require accurate
                            reporting of tax liabilities, timely filing of returns, and timely
                            and complete payment of taxes owed.
SS-8 Database               A tool used by the SS-8 Program as a tracking system and
                            work area. All aspects of case processing are manipulated
                            and stored in this electronic medium.
Social Security Number      The identifying number required on tax returns and other
                            documents submitted to the IRS by an individual. A Social
                            Security Number is composed of nine digits separated by
                            two hyphens; for example, 123-45-6789.
Social Security Tax         A tax imposed by the Federal Government on both
                            employees and employers to fund Social Security, which
                            provides retirement benefits for retirees and other
                            beneficiaries.
Strategic Data Services     The organization within the Treasury Inspector General for
                            Tax Administration that uses computer code to extract data
                            from IRS systems not readily available to auditors.
Strategic Data Services     Data received from Strategic Data Services from an IRS
Extract                     system not readily available to auditors on the Data Center
                            Warehouse.
Tax Gap                     The estimated difference between the amount of tax that
                            taxpayers should pay and the amount that is paid voluntarily
                            and on time.
Tax Year                    The 12-month period for which tax is calculated. For most
                            individual taxpayers, the tax year is synonymous with the
                            calendar year.




                                                                                       Page 24
             Employers Do Not Always Follow
                Internal Revenue Service
              Worker Determination Rulings



                                              Appendix VII

Management’s Response to the Draft Report




                                                    Page 25
Employers Do Not Always Follow
   Internal Revenue Service
 Worker Determination Rulings




                                 Page 26
Employers Do Not Always Follow
   Internal Revenue Service
 Worker Determination Rulings




                                 Page 27
